           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   POTENTIAL SOCIAL SECURITY NUMBER
 MISUSE IN CERTAIN UNIQUE POPULATIONS

        May 2009   A-08-08-28060




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   May 26, 2009                                                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Potential Social Security Number Misuse in Certain Unique Populations
        (A-08-08-28060)


        OBJECTIVE
        Our objective was to determine whether Social Security numbers (SSN) had been
        misused for employment purposes, when certain unique circumstances were present.
        In doing so, we examined the earnings records of numberholders we believed were less
        likely to work, including those who may be deceased.

        BACKGROUND

        The Social Security Administration (SSA) assigns SSNs primarily to ensure
        U.S. workers receive appropriate credit for the wages and self-employment income they
        earned and, ultimately, to determine eligibility for and entitlement to full and accurate
        benefits. SSA records pertinent information about numberholders in its Numerical
        Identification (Numident) file, 1 including death data posted by its Death Alert, Control,
        and Update System (DACUS). 2 SSA, acting as an agent for the Internal Revenue
        Service (IRS), posts U.S. workers’ annual earnings, 3 as reported by employers and the




        1
          The Numident is the repository for all SSNs assigned. Information in the Numident may include the
        numberholder’s name, date and place of birth, parents’ names, citizenship status at the time the
        numberholder filed the SSN card application, and dates of any replacement Social Security cards issued
        (71 Federal Register 1815, January 11, 2006).
        2
         DACUS receives death reports and compares the date of death to SSA’s payment records. If there is
        no conflicting information, DACUS records the death on the Numident. If the comparison indicates that
        payments have been made after death or there is conflicting information about the date of death, DACUS
        generates an alert to the field office.
        3
         The Social Security Act § 205(c)(2)(A), 42 U.S.C. § 405(c)(2)(A) requires that SSA “…establish and
        maintain records of the amounts of wages paid to, and the amounts of self-employment income derived
        by, each individual and of the periods in which such wages were paid and such income was derived.…”
Page 2 - The Commissioner


IRS, in its Master Earnings File (MEF). 4 SSA uses MEF data to determine eligibility for,
and the amount of, Social Security benefits. However, SSA’s ability to ensure
individuals’ earnings are properly credited to the MEF is greatly dependent on
employers and employees accurately reporting SSNs and names on a Wage and Tax
Statement (Form W-2).

Before posting workers’ earnings to the MEF, SSA’s Annual Wage Reporting validation
process matches numberholders’ SSNs and names, as shown on the W-2, to the
information recorded on the Numident. When SSA cannot associate reported earnings
to a specific SSN/name combination, it posts the W-2 data in the Earnings Suspense
File (ESF)—the repository for all unmatched wage items. 5 SSA’s system also checks
the Numident for indications the numberholder is deceased. If a date of death is
present and the year of death is before the year of reported wages, SSA’s system posts
the wages to the ESF and identifies them as Earnings After Death records. SSA
contacts the employers who submitted the W-2s to resolve Earnings After Death
records.

When an individual uses another person’s SSN and name to work in the United States,
SSA’s system may post wages reported for that worker to the true numberholder’s
account. Generally, unless the true numberholder recognizes the overstatement of
earnings and disclaims the wages with SSA and/or IRS, these earnings remain
overstated in SSA’s records. 6 This may result in SSA paying some individuals more
benefits than they are entitled to receive. Furthermore, when an individual uses a
deceased person’s SSN and name to work and the decedent’s Numident does not
indicate his/her death, SSA’s system may post wages reported for that worker to the
decedent’s account. The absence of dates of death on the Numident could impact
other programs, such as the Department of Homeland Security’s E-Verify program, 7
which relies on information SSA provides from the Numident record, to confirm work
eligibility.




4
  The MEF contains all earnings data reported by employers and self-employed individuals
(71 Federal Register 1819, January 11, 2006).
5
 SSA posts wage items that cannot be matched to its records, including self-employment earnings, to the
ESF.
6
 Each year, SSA issues workers aged 25 and older a Social Security Statement of wages reported under
their SSNs. SSA encourages those receiving a Social Security Statement to check the accuracy of the
recorded earnings and immediately report any discrepancies. In addition, when filing for Social Security
benefits, applicants are required to confirm the accuracy of their earnings record.
7
 E-Verify is a Department of Homeland Security on-line system that participating employers use to verify
new hires’ work eligibility. Employers submit information from a new employee's Form I-9 (Employment
Eligibility Verification) and E-Verify compares the data submitted against SSA and Department of
Homeland Security databases.
Page 3 - The Commissioner


To accomplish our objective, we obtained three extracts of SSNs from one segment of
the Numident 8 and related MEF records. The extracts were limited to Numident records
that did not contain dates of death and were based on the following criteria. 9

    Category 1 – Individuals with covered earnings (through 2006) posted in at least
     1 year on or after the numberholder reached age 100.

    Category 2 – Individuals age 65 to 99 with no earnings posted before age 65 but
     with covered earnings in at least 1 year from 2000 through 2006.

    Category 3 – Individuals age 49 to 99 with a 30-year or more gap in earnings but
     with covered earnings in at least 1 year from 2000 through 2006.

We identified a population of 25 SSNs for Category 1 and performed a 100-percent
review. We removed records from Categories 2 and 3 when the numberholder’s
Master Beneficiary (MBR) 10 or Supplemental Security Record (SSR) 11 indicated the
individual was deceased, but a date of death was not recorded on the Numident. For
these records, we created Categories 2A and 3A and performed a 100-percent review.
We then randomly selected and reviewed 200 SSNs each from Categories 2 and 3.
The sample size and the Numident segment population and universe for each category
are shown in Table 1.




8
 SSA stores Numident records in equal segments by numerically arranging records according to the last
two digits of the SSN (for example, 80-84, 85-89, 90-94, etc.). Each segment represents about 5 percent
of all Numident records, and there are 20 segments in total. It is common practice for SSA to use a
segment to estimate results to the entire file.
9
  Although wage postings were only available through 2006 when we obtained the extracts, during our
analysis period, 2007 earnings became available. Accordingly, we reviewed this information for the
sample numberholders. In addition, we only considered MEF records with “covered” earnings, which are
earnings creditable for payment of Social Security benefits. However, for Category 3, we considered
records with noncovered earnings that were earned before the 30-year gap.
10
  The MBR is the master payment file for the Retirement and Survivors and Disability Insurance
programs.
11
  The SSR is the master payment file for the Supplemental Security Income program for the aged, blind,
and disabled.
Page 4 - The Commissioner


                Table 1: Details of Sample Records Selected for Review


                                                                  Number           Estimate of Total
                                                                 of SSNs in        SSNs in Numident
                                                                Segment 11          File, that is, the
                   Description of                   Sample      of Numident             Universe
 Category   Numberholders    in Category             Size            File           (Segment x 20)
    1     Age 100 or older, earnings on or
          after age 100                                25               25                   500
    2     Age 65 to 99, no earnings
          before age 65                               200           3,870                 77,400
    2A    Age 65 to 99, no earnings
          before age 65 and death
          indicator on other SSA records                 9               9                   180
    3     Age 49 to 99, with 30-year or
          more gap in earnings                        200           2,620                 52,400
    3A    Age 49 to 99, with 30-year or
          more gap in earnings and death
          indicator on other SSA records                3               3                     60
    Total                                             437           6,527                130,540

When reviewing the sample items, we performed a variety of analyses to determine
whether it appeared another person used the numberholder’s SSN for work purposes. 12
We sent letters to employers requesting verification of workers’ SSNs, names, and
dates of birth for those SSNs where it appeared misuse occurred. In addition, we
requested that our Office of Investigations check its records to identify whether any of its
prior fraud/misuse cases implicated these SSNs.

We also performed a variety of analyses to determine whether numberholders were
deceased. For example, for Category 1, we checked SSA databases, State Bureaus of
Vital Statistics (BVS), and LexisNexis 13 for any death records. In addition, we
determined whether the Centers for Medicare and Medicaid Services had recorded any
recent Medicare claims activity for these numberholders. We also requested that SSA
field office personnel visit certain numberholders to determine whether they were alive.




12
  For purposes of this report, we determined potential SSN misuse occurred when (1) W-2’s SSN and
last name matched that on the Numident and (2) employers who reported the wages verified that the
worker’s first name and/or date of birth was significantly different from that shown on the Numident.
13
  LexisNexis is an on-line service that provides comprehensive information, such as legal, news,
business and public records content.
Page 5 - The Commissioner


Scope Limitations and Underlying Assumptions

In performing our tests, we could not always verify the person working under our sample
SSN was the true numberholder because of the elapsed time between when the
numberholders’ wages were earned and recorded in SSA’s MEF and our review of
these records. Further, in some cases, the employer no longer had records of the
worker or was no longer in business. Therefore, we could not always obtain from the
employers information that would allow us to verify that the worker was the true
numberholder.

To assist in our death determinations, we searched SSA records and LexisNexis to
identify numberholders’ last known addresses. However, some numberholder
addresses were outdated and inconsistent. Concluding whether numberholders were
deceased would have required extensive searches—that is, searching records of each
local, State, and/or U.S. territory BVS of which there are thousands—to obtain
verification of death, if one existed, for each numberholder. Even if we conducted these
searches, we had no assurance the (1) individuals did not die in another country and
the United States received the death record or (2) BVSs have death records for
everyone who has ever died in the United States.

Because of these limitations, our analyses produced mixed results, and we were unable
to establish whether some SSNs were misused. As a result, our audit scope and
results were limited in these cases. Furthermore, we made the following assumptions
when performing our analyses.

    Unless a numberholder’s Application for a Social Security Card (Form SS-5), MBR,
     or SSR indicated a different date of birth than that shown on the Numident, the
     Numident date of birth was correct.

    For certain numberholders, the last known documented address was the locality in
     which we searched for a death record.

See Appendix B for more information regarding our scope and methodology and
Appendix C for our sample appraisal.

RESULTS OF REVIEW

Our audit confirmed that numberholders’ SSNs, in the unique categories we defined,
may be misused for work. As a result, SSA would post the earnings from this work to
the true numberholders’ MEF record. From the 5 categories reviewed, we identified
24 cases in which someone may have misused the numberholder’s SSN and name,
including 1 SSN that belonged to a deceased numberholder. 14 We determined that
many of these potentially misused SSNs were from Category 2—SSNs that belonged to

14
  For this numberholder, we targeted only those earnings that occurred after the year of the
numberholder’s death.
Page 6 - The Commissioner


numberholders who were age 65 to 99 who had no earnings posted to their accounts
before age 65. For Category 2, we determined that potential misuse occurred in
17 (8.5 percent) of the 200 SSNs reviewed. Therefore, we estimate about 6,580 of the
approximately 77,400 SSNs in this Category were potentially misused for work
purposes.

We acknowledge that identifying and investigating each case with characteristics similar
to those we defined would be labor-intensive and costly—and would likely produce
mixed results. Accordingly, we are not recommending that SSA take action to routinely
review such occurrences. However, through reviewing these cases, we identified an
opportunity for SSA to strengthen its wage reporting process. Specifically, we
determined SSA posted wages to 11 aged (age 100 or older) numberholders’ records.
Of these, three were due to potential misuse. 15 For the remaining eight, Single Select,
a component of SSA’s Annual Wage Reporting validation process, erroneously posted
the earnings to these numberholders’ records. In these eight cases, the true
numberholders’ SSNs and/or last names were similar—but, not identical—to those
reported on the workers’ W-2s. We believe SSA has a responsibility to ensure effective
controls are in place to prevent its system from posting others’ wages to aged
numberholders’ earnings records.

Overall, we identified 19 deceased numberholders. However, SSA posted earnings to
only 12 16 of the numberholders’ MEF records after their deaths. In these cases, the
decedents’ Numidents did not reflect their dates of death, and the workers’ SSNs and
last names matched or were similar to those of the deceased numberholders. In
previous audits, we reviewed SSA’s death reporting process and made
recommendations for improvements. 17 We continue to support those recommendations
but will not repeat them in this report.




15
     These 3 are included in the 24 potential misuse cases.
16
  Of the 12 instances, 1 occurred because of potential SSN misuse, 6 occurred because of SSA’s
Single Select routine and 5 occurred because of other factors, such as possible employer error.
17
  SSA, Office of the Inspector General (OIG), Congressional Response Report: The Social Security
Administration’s Efforts to Process Death Reports and Improve its Death Master File (A-09-03-23067),
January 2003, and Improving the Usefulness of Social Security Administration’s Death Master File
(A-09-98-61011), July 2000.
Page 7 - The Commissioner


NUMBERHOLDERS’ RECORDS CONTAINED POSTED EARNINGS THAT MAY
INDICATE SSN MISUSE

Of the 200 earnings records reviewed in Category 2, we concluded that SSN misuse
may have occurred in 17 (8.5 percent) cases. Given this error rate, we estimate that
about 6,580 of the approximately 77,400 SSNs in this Category were potentially
misused for work purposes (see Appendix C). This Category of SSNs belonged to
numberholders who were age 65 to 99, and SSA had not posted any earnings to their
account before age 65. We determined that the majority of numberholders in this
Category were foreign-born, and many had not applied for an SSN until age 65 or later.
For the remaining categories, we concluded that seven 18 numberholders’ SSNs were
potentially used by another to work, including one 19 that belonged to a deceased
person. The sample size and the number of potential SSN misuse cases for each
Category are shown in Table 2.

            Table 2: Number of Potential SSN Misuse Cases for Each Category

                                                                                 Number of Potential
                            Description of                          Sample       SSN Misuse Cases
 Category           Numberholders in Category                        Size           in Sample
     1      Age 100 or older, earnings on or after
            age 100                                                     25                  3
     2      Age 65 to 99, no earnings before age 65                    200                 17
     2A     Age 65 to 99, no earnings before age 65 and
            death indicator on other SSA records                         9                  1 20
     3      Age 49 to 99, with 30-year or more gap in
            earnings                                                   200                 3
     3A     Age 49 to 99, with 30-year or more gap in
            earnings and death indicator on other SSA
            records                                                      3                  0
 Total Potential SSN Misuse Cases                                                          24

For each of the potentially misused SSNs, the worker’s SSN and last name, as shown
on the W-2, matched that of the numberholder. Because of this match, SSA’s system
posted the wages to the true numberholder’s account. However, the employers for
these 24 workers provided us with first names and/or dates of birth that were
significantly different than those recorded on the Numident. We believe the following
examples from our sample SSNs illustrate the possibility that SSN misuse may have
occurred—and the earnings of this work posted to others’ SSN records.




18
     Of these, three were from Category 1, one was from Category 2A, and three were from Category 3.
19
     This instance occurred in Category 2A.
20
     This count includes the one deceased numberholder.
Page 8 - The Commissioner


     In one instance, five employers reported a worker’s wages for 2000 under the SSN
      and name of a numberholder who died in 1995. 21 Four of these employers provided
      a date of birth for the worker that was more than 20 years after the numberholder’s
      birth. However, since 2000, no employers have reported earnings under this SSN
      and name.

     In another instance, an employer reported, and SSA posted, a worker’s 2001
      through 2003 earnings under the SSN and name of our sample numberholder.
      However, the worker’s first name was different from the numberholder’s. 22 Based
      on the employer’s response, we determined the worker could be the numberholder’s
      son—who obtained his own SSN in 2003. Since 2003, it appears all earnings
      reported and posted to the numberholder’s account belong to the true numberholder.

We recognize that SSA does not have a procedure to routinely distinguish the
probability for SSN misuse in such cases and that to do so, the Agency would need to
develop a process that may be labor-intensive and costly. Accordingly, we are not
recommending that SSA take action to routinely identify such occurrences. However,
we referred 18 of the 24 potential misuse cases to our Office of Investigations. 23

EARNINGS POSTED TO AGED 24 NUMBERHOLDERS’ RECORDS

We concluded that SSA’s system posted another’s wages to 11 (44 percent) of the
25 aged (age 100 or older) numberholders’ earnings records. Of these, we determined
that three aged numberholders’ SSNs were potentially misused by another, as identified
in the previous section of this report. Additionally, SSA’s system routine, Single Select,
erroneously posted earnings to the other eight aged numberholders’ records.

Single Select identifies and attempts to reconcile W-2 data that do not match
numberholder information on the Numident. To identify the correct record, Single Select
generates multiple variations of the SSN from the W-2. If Single Select establishes a
match between the W-2 and Numident, SSA’s system posts the wages to that
numberholder’s earnings record. However, Single Select may match wages to the
wrong Numident when the SSN and name of a worker and a numberholder are similar.
In fact, an SSA representative acknowledged that the Single Select process may result
in workers’ earnings being posted to other numberholders’ accounts. For example, we
determined that Single Select erroneously posted 2003 wages for a worker named
Artemio to the record of a 103-year-old numberholder whose first name was Ana. We
contacted the employer, who reported the earnings and learned the worker’s SSN was

21
     This instance occurred in Category 2A.
22
     This instance occurred in Category 2.
23
  We only referred those cases where there were earnings in 2005 or later or we located a record of
death. Of the 24 cases, 6 did not meet these criteria.
24
 For this report, we defined aged as a numberholder age 100 or older—who we believe are less likely to
work. These are Category 1 SSNs.
Page 9 - The Commissioner


similar to the numberholder’s and their last names matched. However, Single Select
was unable to distinguish between the numberholder and worker. As illustrated in this
example, Single Select may erroneously post a worker’s wages to another’s earnings
record.

When wages are incorrectly posted to aged numberholders’ records, whether by SSA’s
processes or SSN misuse, earnings are not properly credited to the true workers’
accounts. We believe SSA has a responsibility to ensure effective controls are in place
to prevent its system from posting others’ wages to aged numberholders’ earnings
records, especially for those who are less likely to work. We believe SSA can
effectively improve its earnings process by reducing this type of posting. As such, we
recommend that SSA generate an alert for manual review before its system posts
wages to aged numberholders’ earnings records. In addition, we believe SSA should
remove the erroneous wages that Single Select posted to the eight records identified in
our review. We will provide further details on these records under separate cover.

NUMIDENT RECORDS DID NOT REFLECT DATES OF DEATH

Overall, we identified 19 deceased numberholders. 25 However, their Numidents did not
reflect their dates of death. While we obtained a few numberholders’ dates of death
through searching local BVSs, we determined most of these numberholders’ deaths by
reviewing other SSA records, such as the MBR, SSR, or another Numident. 26
Furthermore, SSA posted earnings to 12 of the 19 deceased numberholders’ records
years after their deaths. 27

We recognize that SSA’s ability to accurately record dates of death in its Numident
greatly depends on States, family, friends, and others promptly and correctly reporting
this information to the Agency. Additionally, we realize the Agency’s death reporting
process does not always record incoming death information on decedents’ Numidents.
This generally occurs when the incoming death report contains an SSN and/or name
that is different from that shown on the decedent’s Numident.

Because of a 1999 Pricewaterhouse Coopers, LLP, recommendation, 28 SSA initiated a
project that matched DACUS death dates to those on the MBR and SSR. However,
because of limited resources, the Agency did not post these proven dates of death to
the respective Numidents. In 2000, we recommended SSA reconcile deaths that



25
     This count includes the one potential misuse record.
26
     Some numberholders had more than one SSN and therefore more than one Numident.
27
  Of the 12 instances, 1 occurred because of potential SSN misuse, 6 occurred because of SSA’s
Single Select routine and 5 occurred because of other factors, such as possible employer error.
28
 Pricewaterhouse Coopers, LLP, Management Letter on Recommendations to Improve Management
Controls and Operations Resulting from the Fiscal Year 1999 Financial Statement Audit, November 1999.
Page 10 - The Commissioner


remained unrecorded on the Numident. 29 SSA disagreed because it believed the
reconciliation process would be difficult and labor-intensive. Although we are not
making a recommendation in this report, we continue to believe SSA should reconcile
deaths recorded on the MBR and/or SSR to decedents’ Numidents, especially given
that the Department of Homeland Security’s E-Verify program relies on information that
SSA provides from the Numident record to verify employment eligibility. In addition, we
believe SSA should record the numberholders’ deaths we identified in this review to
their Numidents. We will provide further details regarding the deceased numberholders
under separate cover.

CONCLUSION AND RECOMMENDATIONS

Although our audit confirmed that numberholders’ SSNs may be misused for work and
these earnings posted to their records, we acknowledge that identifying and
investigating each case with characteristics similar to those we identified in this review
would be labor-intensive and costly—and would likely produce mixed results.
Additionally, because we could not always verify the person working under our sample
SSN was the true numberholder, we cannot conclude SSN misuse occurred without
extensive research into each instance. Accordingly, we are not recommending that
SSA take action to routinely identify such occurrences.

However, we believe SSA has a responsibility to ensure effective controls are in place
to prevent posting others’ wages to aged numberholders’ earnings records. As such,
the Agency should remove the erroneous postings we identified. Additionally, because
the absence of dates of death on the Numident could impact other databases, including
the Death Master File and the Department of Homeland Security’s E-Verify program, we
believe the Agency should record the deaths we identified on the applicable Numident
records. We will provide further details regarding the improperly posted earnings and
deceased numberholders under separate cover.

Accordingly, we recommend that SSA:

1. Generate an alert for manual review before its system posts earnings to aged (age
   100 or older) numberholders’ records.

2. Remove the erroneous wages that Single Select posted to the eight records
   identified in our review.

3. Record the deaths identified in this review to the appropriate Numidents.




29
  SSA OIG, Improving the Usefulness of Social Security Administration’s Death Master File
(A-09-98-61011), July 2000.
Page 11 - The Commissioner


AGENCY COMMENTS AND OIG RESPONSE
We believe SSA’s response and planned actions adequately address our
recommendations. SSA also provided technical comments that we considered and
incorporated, where appropriate. The full text of SSA’s comments is included in
Appendix D.



                                             S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sample Appraisal
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                     Appendix A

Acronyms
BVS        Bureau of Vital Statistics
DACUS      Death Alert, Control, and Update System
ESF        Earnings Suspense File
MBR        Master Beneficiary Record
MEF        Master Earnings File
Numident   Numerical Identification
OIG        Office of the Inspector General
SSA        Social Security Administration
SSN        Social Security Number
SSR        Supplemental Security Record
U.S.C.     United States Code


Forms
SS-5       Application for a Social Security Card
W-2        Wage and Tax Statement
                                                                                 Appendix B

Scope and Methodology
To accomplish our objective, we:

   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures as well as relevant Federal laws and regulations.

   Reviewed Office of the Inspector General and Government Accountability Office
    reports and other relevant documents.

   Obtained three data extracts from one randomly selected segment of SSA’s
    Numerical Identification (Numident) 1 file—the repository of all assigned Social
    Security numbers (SSN). The extracts were limited to Numident records that did not
    contain dates of death as of December 31, 2006. For each Numident record, we
    obtained the corresponding earnings record from SSA’s Master Earnings File
    (MEF). 2 The extracts were created based on the following criteria. 3

    o Category 1 – Individuals with covered earnings (through 2006) posted at least
      1 year on or after the numberholder reached age 100.

    o Category 2 – Individuals age 65 to 99 with no earnings posted before age 65 but
      with covered earnings in at least 1 year from 2000 through 2006.

    o Category 3 – Individuals age 49 to 99 with a 30-year or more gap in earnings but
      with covered earnings in at least 1 year from 2000 through 2006.

For Category 1, we identified a population of 64 SSNs. However, during our review of
these 64 records, we excluded 39 because the Numidents contained incorrect dates of
birth, and these numberholders were under 100 years of age. We performed a
100-percent review of the remaining 25 records.

1
 SSA stores Numident records in equal segments by numerically arranging records according to the last
two digits of the SSN (for example, 80-84, 85-89, 90-94, etc.). Each segment represents about 5 percent
of all Numident records, and there are 20 segments in total. It is common practice for SSA to use a
segment to estimate results to the entire file.
2
  The MEF contains all earnings data reported by employers and self-employed individuals
(71 Federal Register 1819, January 11, 2006).
3
  Although wage postings were only available through 2006 when we obtained the extracts, during our
analysis period, 2007 earnings became available. Accordingly, we reviewed this information for the
sample numberholders. In addition, we only considered MEF records with “covered” earnings, which are
earnings creditable for payment of Social Security benefits. However, for Category 3, we considered
records with noncovered earnings that were earned before the 30-year gap.


                                                  B-1
For Categories 2 and 3, we excluded records for numberholders who were receiving
Social Security payments. 4 In addition, for Categories 2 and 3, we created separate
Categories (2A and 3A) for numberholders whose Master Beneficiary (MBR) 5 or
Supplemental Security Record (SSR) 6 indicated the numberholder was deceased and
performed a 100-percent review of these records. 7 From the remaining records, we
identified a universe of 3,870 SSNs for Category 2 and 2,620 SSNs for Category 3 and
randomly selected 200 SSNs from each category to review.

For all five categories, we performed the following steps to isolate those SSN records
we believed indicated there was a higher probability the numberholder was deceased
and another individual used the decedent’s SSN to work.

     We obtained copies of numberholders’ Application for a Social Security Card
      (Form SS-5) for original and replacement SSN cards. We reviewed the SS-5s to
      obtain biographical information and numberholders’ addresses.
     We obtained copies of the most recent Wage and Tax Statement (Form W-2) to
      determine whether the SSN and name reported matched that on the Numident. We
      also obtained workers’ addresses from the W-2 to compare with other addresses
      collected.
     We reviewed SSA’s MBR and/or SSR to obtain workers’ addresses to compare with
      other addresses collected.
     For all categories, we obtained each numberholder’s detailed earnings queries to
      determine the type of work performed and whether this work was consistent with the
      capabilities of the numberholder’s age. Additionally, for Category 1, we determined
      whether these individuals, age 100 or older, worked consistently after age 65. For
      numberholders in Categories 3 and 3A, we determined whether the type of current
      work was consistent with work performed in prior years.
     We performed LexisNexis 8 searches to obtain data on numberholders, particularly
      dates of death, and compared LexisNexis addresses to other addresses collected.




4
 We excluded these records because we believe numberholders receiving payments are unlikely to be
deceased.
5
 The MBR is the master payment file for the Retirement and Survivors and Disability Insurance
programs.
6
 The SSR is the master payment file for the Supplemental Security Income program for the aged, blind,
and disabled.
7
    There were nine records in Category 2A and three records in Category 3A.
8
 LexisNexis is an on-line service that provides comprehensive information, such as legal, news, business
and public records content.


                                                   B-2
Based on the steps above, we identified sample records in which SSNs appeared likely
to have been misused by another person. For these sample records, we performed the
following additional steps.

   We sent letters to employers and requested workers’ SSNs, names, and dates of
    birth to determine whether employment information was consistent with data
    recorded on the Numident.
   We requested that SSA field office personnel visit State Bureaus of Vital Statistics to
    determine whether there was a death record for certain numberholders. For
    Category 1, we contacted SSA field offices and requested they visit certain
    numberholders and determine whether these individuals were alive.
   We requested that our Office of Investigations check its National Investigative Case
    Management System database to determine whether there was a record of fraud or
    misuse associated with those sample SSNs we believed were potentially misused.
   For Category 1, we requested the most recent date of Medicare claims activity from
    the Centers for Medicare and Medicaid Services to identify potentially deceased
    numberholders.
   For certain numberholders who were noncitizens, we requested that the Department
    of Homeland Security verify its current classes of admission to determine whether
    types of work and earnings were consistent with their immigration statuses.

Scope Limitations and Underlying Assumptions

In performing our tests, we could not always verify the person working under our sample
SSN was the true numberholder because of the elapsed time between when the
numberholders’ wages were earned and recorded in SSA’s MEF and our review of
these records. Further, in some cases, the employer no longer had records of the
worker or was no longer in business. Therefore, we could not always obtain from the
employers information that would allow us to verify that the worker was the true
numberholder.

To assist in our death determinations, we searched SSA records and LexisNexis to
identify numberholders’ last known addresses. However, some numberholder
addresses were outdated and inconsistent. Concluding whether numberholders were
deceased would have required extensive searches—that is, searching records of each
local, State, and/or U.S. territory BVS of which there are thousands—to obtain
verification of death, if one existed, for each numberholder. Even if we conducted these
searches, we had no assurance the (1) individuals did not die in another country and
the United States received the death record or (2) BVSs have death records for
everyone who has ever died in the United States.




                                            B-3
Because of these limitations, our analyses produced mixed results, and we were unable
to establish whether some SSNs were potentially misused. As a result, our audit scope
and results were limited in these cases. Furthermore, we made the following
assumptions when performing our analyses.

   Unless a numberholder’s SS-5, MBR, or SSR indicated a different date of birth than
    that shown on the Numident, the Numident date of birth was correct.

   For certain numberholders, their last known documented address was the locality in
    which we searched for a death record.

Although we found the data used for this audit were generally reliable to meet our audit
objective, there were exceptions. The Numident was sufficiently reliable except when
death was not recorded, and the MEF was sufficiently reliable except when it contained
improperly posted earnings. However, we did not rely on the Numident or the MEF in
these instances. Instead, we performed other tests to verify whether numberholders
were alive and if earnings belonged to the numberholders.

The SSA entities audited were the Offices of the Deputy Commissioners for Systems,
Operations, and Retirement and Disability Policy. We conducted this performance audit
from April 2008 through January 2009 in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                          B-4
                                                                                Appendix C

Sample Appraisal
Table 1: Sample Results and Projection for Category 2 1


                             SAMPLE ATTRIBUTE APPRAISAL

    Population of Category 2 SSNs from One Segment of the Numident                            3,870

    Sample Size                                                                                 200
                                      Attribute Projection
    Number of Instances in Sample Where SSN was Potentially Misused by
                                                                                                 17
    Another

    Point Estimate                                                                              329

       Projection Lower Limit                                                                   215

       Projection Upper Limit                                                                   478
                                     Numident Estimate
    Estimate in 20 Segments of Numident File
                                                                                              6,580
    (Point Estimate multiplied by 20)

NOTE: Projection is at the 90-percent confidence level.




1
 Category 2 – Individuals age 65 to 99 with no earnings posted to their account before age 65 but with
covered earnings in at least 1 year from 2000 through 2006 and whose Numident records did not contain
dates of death as of December 31, 2006.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      May 4, 2009                                                           Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn
           Chief of Staff /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Potential Social Security Number Misuse
           in Certain Unique Populations" (A-08-08-28060)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "POTENTIAL SOCIAL SECURITY NUMBER MISUSE IN CERTAIN
UNIQUE POPULATIONS" (A-08-08-28060)


We are pleased that the review did not find widespread Social Security number (SSN)
misuse for the unique population selected for analysis. Below are our responses to the
specific recommendations, as well as some technical comments.

Recommendation 1

Generate an alert for manual review before its system posts earnings to aged (age 100 or
older) numberholders’ records.

Comment

We agree that an alert would be a proactive step allowing an opportunity for early review
of the record for possible fraudulent earnings activity. By May 31, 2009, we will
determine if instituting such an alert is possible given current resources.

Recommendation 2

Remove the erroneous wages that Single Select posted to the eight records identified in
the review.

Comment

We agree. We will resolve the erroneous wages that Single Select posted to the eight
records identified.

Recommendation 3

Record the deaths identified in the review to the appropriate Numidents.

Comment

We agree. We will record the deaths identified to the appropriate Numidents.




                                           D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director

   Theresa Roberts, Audit Manager

Acknowledgments

In addition to those named above:

   Neha Smith, Auditor-In-Charge

   Ken Coward, Senior Program Analyst

   Charles Lober, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-08-28060.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
